CERTIFICATE OF SERVICE
No. 20-1072
Chad Thompson, William T. Schmitt, and Don Keeney,
v.

Petitioners

Richard Michael DeWine, Governor of Ohio; Stephanie McCloud, Director of Ohio
Dep’t of Health; and Frank LaRose, Ohio Secretary of State,
Respondents.
I, Mark R. Brown, do hereby certify that, on this 30th day of March, 2021, I
caused an electronic copy of the Reply Brief for Petitioners in the foregoing case to
be served on the following party:
Benjamin M. Flowers
Solicitor General of Ohio
Office of the Ohio Attorney General
30 East Broad Street, 17th Floor
Columbus, OH 43215
(614) 466-8980
benjamin.flowers@ohioattorneygeneral.gov

/s/ Mark R. Brown
MARK R. BROWN
CAPITAL UNIVERSITY LAW
SCHOOL
303 E. Broad Street
Columbus, OH 43215
(614) 236-6590
mbrown@law.capital.edu

